HHS/OIG, Audit -"Review of Pension Segmentation Requirements at Premera Blue Cross,
a Terminated Medicare Contractor,"(A-07-05-00191)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Segmentation Requirements
at Premera Blue Cross, a Terminated Medicare Contractor," (A-07-05-00191)
July 3, 2006
Complete
Text of Report is available in PDF format (801 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine if Premera complied with the Medicare contracts pension
segmentation requirements:  (1) while updating Medicare segment assets from January
1, 1995, to December 31, 2004, and (2) in determining Medicares share of excess liabilities
as a result of the termination of the Medicare contract. We found that  Premera did
not comply with the Medicare contracts pension segmentation requirements while updating
the Medicare segments assets from January 1, 1995, to December 31, 2004.  As a result,
Premera understated the Medicare segment assets by $481,681.  The understatement occurred
primarily because Premera did not allocate net investment earnings to the Medicare segment
in accordance with the Cost Accounting Standards requirements.
We recommended that Premera decrease Medicares portion of the Medicare segments excess
pension liabilities by $856,522, and therefore recognize $190,637 as Medicares portion.  Premera
partially concurred with our findings.  Premera did not agree that the segments accrued
benefit liability was overstated by $369,752.